No.

2O' lt)l

Supreme Court of the United
States
JOE BLESSETT, PETITIONER
v.
BEVERLY A GARCIA, RESPONDENT

filed

AUG -3 2020
^22eofthecl§rK

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF
APPEALS
FOR THE FIFTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

Joe Blessett
Pro Se
3118 FM 528 #346
Webster, TX 77598
Ph. 281-667-1174
joe@joeblessett.com

QUESTION PRESENTED
1. Has the Court decision denied Blessett’s U.S.
Constitution protected right not to contract into
Title IV-D services?
2. Did the 5th Appellate Court and the District
Court final judgment and opinions make a valid
argument to overturn state court judgments in
June of 2015 and June of 2016 for lack of procedural
due process in the enforcement of aa federal
contract without due process protections?
3. Does the Petitioner lose the right to sue in
U.S. Federal Courts, his 7th amendment right and
U.S. Supreme Court Stare Decisis to see the legal
instruments of a financial, contractual obligation
between the Petitioner, the Respondent, and the
federal contractor?
4. Does the Petitioner have U.S. Constitution
right to see the legal instruments proving the loss
of his Texas homestead exempt status for his
property seized?
5. Did the federal Court deprive Mr. Blessett of
his U.S. Constitution rights on inconclusive
presumptions?
6. Can the Respondent escape liability in a civil
action for the deprivation of rights of the Petitioner
as a silent co-conspirator to fraud?
7. Can the Petitioner be defaulted into any
contract without due process and proof of service to
attend a judicial hearing to defend his rights?
8. Does the judgment preserve the Federal
the U.S. Constitution, and the
Statutes,
Petitioner's rights if that judgment avoids federal
compliance with Title IV-D of the Social Security
Act and the Petitioner's civil right protections?
9. Are biological heterosexual males denied in

the U.S. judicial system their birthright and U.S.
Constitution protections to abort the consequence
of unwanted pregnancy from recreational sex?
10. Did the decision in Roe v Wade provide an
equal remedy for heterosexual male's mental
health and privacy rights for the consequences of an
unwanted pregnancy?
11. What U.S. Constitution right gives a woman
rights to a heterosexual males property, financial
earnings, and wages for the consequences of her
choices in childbirth without a contract?
PARTIES TO THE PROCEEDING
1. The Petitioner is Joe Blessett.
2. Respondent is Beverly A. Garcia

COUNSEL FOR THE RESPONDENT
Stett M Jacoby
Sinkin Barretto PLLC
105 W Woodlawn Ave
San Antonio, TX 78212
Ph: 210-732-6000
Email: siacobv@sinkinlaw.com

CORPORATE DISCLOSURE STATEMENT
1. The Respondent Beverly A Garcia entered into
a contractual agreement on October 22, 1999 with
the Texas Office Of Attorney General Child Support
Enforcement Division (OAG) third party collection
agency under 42 U.S.C. 654(3), a federal
contracted
entity
under the
Government
III

Department of Health and Human Services.
Address:
Mr. Barry McBee
First Assistant Attorney General
for the State of Texas
P.0. Box 12548
Austin, TX 78711
2. U.S. Department of Health and Human
Services (HHS).
Office of Inspector General
P.0. Box 23489
Washington, DC 2002
3.City of Galveston (Texas Office of Attorney
General Galveston County Child Support
Enforcement Division) is an OAG subcontractor
under 45 CFR 302.34 that serviced the contract
between the Respondent and the OAG.
Address:
Galveston County Legal Department
City of Galveston
722 Moody, 5th Floor
Galveston, TX 77550
(409) 770-5562
4. The City of Galveston (located in Galveston
County, Texas) the contracted municipality that
provides the 45 C.F.R. 302.34 contracted entity to
fulfill the services for OAG the 42 U.S.C. 654 (3)
contractor.
Address:
Galveston County Legal Department
IV

City of Galveston
722 Moody, 5th Floor
Galveston, TX 77550
(409) 770-5562
5. La Marque Child Support & Social Service
Office (located in Galveston County Texas), a 45
C.F.R. 302.34 contracted service provider for OAG
the 42 U.S.C. 654 (3) contractor.
Address:
La Marque Child Support & Social Service Office
5300 FM 2004
La Marque, TX 77568-2402
6. Representing the United States interest as per
28 U.S.C. 2403(a).
Ms. Charlene Goodwin
Legal Administrative
Officer Office of the Solicitor General,
Rm. 5614 United States Department of Justice
950 Pennsylvania Ave.,
NW Washington, DC 20530-0001
7. Steven A Sinkin of Sinkin Law Firm agent and
officer of Sinkin and Barretto P.L.L.C.
Address:
Sinkin and Barretto P.L.L.C.
105 W Woodlawn Ave
San Antonio, TX 78212

"Since every government is an artificial person,
an abstraction, and a creature of the mind only, a
V

government can interface only with other artificial
persons. The imaginary, having neither actuality
nor substance, is foreclosed from creating and
attaining parity with the tangible. The legal
manifestation of this is that no government, as well
as any law, agency, aspect, court, etc. can concern
itself with anything other than corporate, artificial
persons and the contracts between them." U.S. v
Minker, 350 US 179 at 187(1956) JOSEPH
CRAIG
BLESSETT, Joe Blessett's artificial
person has not entered into a Title IV-D financial
obligation contract with any of the corporate and
artificial parties listed above.

VI

TABLE OF CONTENTS
n
Question Presented............................
in
Parties to the proceedings.............
m
Corporate Disclosure........................
Vll
Table of Content.................................
Vlll
Table of Authorities..........................
1
Citations of Opinions.......................
Jurisdiction.........................................
2
2
Statutory provisions involved......
2
Statement..............................................
4
Reasons for granting the petition
A. Blessett charges Garcia with the deprivation
of rights as a silent co-conspirator to fraud in the
omission of the July 23, 1999 support order as an
4
interstate contract
B. The Federal Court had valid diversity
jurisdiction over the claims and 28 U.S.C. 1343 for
a civil action entwined in the deprivation of
8
rights
C. Under any state substantive law Garcia has an
obligation under the Procedural Law Process to get
a judicial order to modify the existing judicial
10
support order
D. State
and local subdivision
recorded
documents are affidavits of voluntary declarations
of facts written down and sworn to by the declarant
filed by an authorized officer under penalties...... 14
E. In Private Law, the Constitution takes a back
seat to legal private contract terms, and there
must be an acknowledgement of the agreement
between all parties concerned to enforce a contract
16
to avoid "Public Law" problems
F. Blessett challenges the denial of the
heterosexual male birthright and U.S. Constitution
right to abort the consequences of recreational sex
22
in intimate private relations
31
Conclusion............................

vii

APPENDIX
Appendix A — Court of Appeals Opinion
(June 8, 2020)................................................
Appendix B — Order denying rehearing
(July 7, 2020).................
Appendix C — Court of Appeals Opinion
(March 6, 2019).............
Appendix D — District Court Order
(Aug. 29, 2019)................
Appendix E — District Court Order
(Oct. 23, 2019)..............................................

1
17
18
22
37

TABLE OF AUTHORITIES
Cases:
5th Amendment

11, 22

9th Amendment

8

10th Amendment

10, 18

14th Amendment immunities and privilege
8, 9, 10, 11, 22

clause

Bailey v. Alabama,
219 U.S. 219, 238, et seq., 31 S.Ct. 145

16

Blessett v Texas Office of Attorney General
Galveston County Child Support Enforcement
Division
5
U.S. 5th Cir. Court 2019
Blessett v. Tex. Office of the AG Galveston Cty. Child
Support Enf't Div.,
No. 3:17-cv-00164, (S.D. Tex.
5
Feb. 12, 2018)
viii

Bostic v. Schaefer
760 F.3d 352 (4th Cir. 2014)

25

Bower v. Vill. of Mount Sterling, 44 Fed. Appx. 670,
25
675-78 (6th Cir.2002)
Cleburne v. Cleburne Living Center, Inc.,
473 US 432 - Supreme Court 1985.........

28

Divorce Poison New and Updated Edition: How to
Protect Your Family from Bad-mouthing and
Brainwashing by Dr. Richard A. Warshak; Parental
Alienation Syndrome in Court Spiral-bound - 2000
24
by Dr. Richard A. Warshak
Dred Scott vs. Sanford,
60 U.S. (19 How.) 393.

27

Fidel, 392 F.3d, at 227 (quoting Helwig v. Vencor,
Inc., 251 F.3d 540, 553
13
(C.A.6 2001) (en banc)),
Glenn v. Brumby,
No. 10-14833 (11th Cir. 2011)
Grubbs, 565 F.3d at 188
(quoting Williams v. WMX Techs., Inc.,
175, 178 (5th Cir. 1997).............................
Koon v. United States,
518 U.S. 81, 100 (1996)
Leatherman
v.
Tarrant
County
Intelligence and Coordination Unit,
ix

26

112 F.3d
12

8
Narcotics

507 US 163- Supreme Court 1993.

6, 13

Loving v. Virginia, 388 U.S. 1, 87 S.Ct. 1817, 18
L.Ed.2d 1010(1967)
16
Parental
Alienating
Behaviors:
An
Unacknowledged Form of Family Violence Harman,
Kruk, & Hines (2018)
24
Manley v. Georgia,
279 US. 1, 5-6, 49 S.Ct. 215.

16

Office of Atty. Gen. of Texas v. Scholer,
403 SW 3d 859 - Tex: Supreme Court 2013

19

Office of the Atty. Gen. of Texas,
456 SW 3d 153 - Tex: Supreme Court 2015

20

Reva B. Siegel, She the People: The Nineteenth
Amendment, Sex Equality, Federalism, and the
Family, 115 Harv. L. Rev. 947, 949 (2002)
23
Roe v. Wade, 410 U.S. 113, 154, 93 S.Ct. 705, 35
24
L.Ed.2d 147(1973)
lv. Wyman,
397 U.S. 397, 420, 90 S.Ct. 1207, 1222, 25 L.Ed.2d
13
442(1970)
Title IV-D of the Social Security Act........6,9, 17, 30
Tellabs, Inc. v. Makor Issues & Rights, Ltd.,
551 US 308 - Supreme Court 2007............

13

U.S. Dep't of Agric. v. Moreno, 413 U.S. 528, 534, 93
S.Ct. 2821, 37L.Ed.2d 782(1973)
25
x

Washington v. Glucksberg,
521 U. S. 702, 721 (1997)

8

STATUTES
18 USC §2721............................

4

18 USC § 2723............................

4

28 U.S.C. 1343............................

4, 8, 14, 17, 18

28 U.S.C. 1738B........................

........10, 11, 22

28 USC § 2403............................

1

42 U.S.C. 1983...........................

5,11, 13, 14

42 U.S.C. 601(b).........................

21

42 U.S.C. 603(5)(c)(iii)(III).....

24

42 U.S.C. § 654...........................

11, 19

42 U.S.C. 654(3).........................

III

42 U.S.C. 654a(e).......................

20

42 U.S.C. 654(12).......................

9, 10, 21

45 CFR 302.34............................

III

45C.F.R. §§307.11...................

20

45 C.F.R. §§ 307.1 l(e)(2)(i)-(ii)

20

45 C.F.R. §§ 307.11(e)(3)..........

20

FRCP 8(b)(6)...............................

....15, 16

FRCP 8(C)...................................

....15, 16

FRCP 9(b)....................................

5, 11, 22

FRCP 9(d)...................................

12

xi

FRCP 9(e).......................................................

14

FRCP 12(b)(6).................................................

17

FRE 201 (c)(2)................................................

16

FRE 901(7).....................................................

16

TEX. FAM.CODE §§102.007.......................

22

TEX. FAM.CODE §§ 231.001, .101(a)(5)-(6)....... 22
TEX. FAM.CODE §§ 231.001, .002, .101

23

TEX. FAM.CODE § 231.104(b)...............

23

xii

CITATIONS OF OPINIONS
The opinions of the Court of appeals:
1. BLESSETT v. Garcia, Court of Appeals, 5th
Circuit (2020) No. 19-40966
2. On Petition For Rehearing( 2020) No. 19-40966
3. Blessett v Texas Office of Attorney General
Galveston County Child Support Enforcement
Division U.S. 5th Cir. Court (2019) No. 18-40142
4. The opinions of the Texas SD Court:
BLESSETT v. Garcia, Dist. Court, SD Texas
(2019) Civil Action No. 3:18-CV-00137
JURISDICTION
The judgment of the Court of appeals was
entered on June 8, 2020. A petition for rehearing
was denied on July 20, 2020, and Texas Galveston
County Family Court #2 June 13, 2015. The
jurisdiction of this Court is invoked under 28 U.S.C.
1254(1) and 28 U.S. Code § 2403 presentation of the
facts and law relating to the question of
constitutionality.

STATUTORY PROVISIONS INVOLVED
Pertinent provisions of Part D of the Social
Security Act, Part A of the Social Security Act, and
the Driver Privacy Protection Act 18 U.S.C. 2721.

Petitioner, Joe Blessett ("Blessett"),
Respondent, Beverly A Garcia ("Garcia")

1

STATEMENT
Is it a legal possibility for an invalid
administrative action under the color in law to have
legal standing to influence any judgment without
violating the U.S. Constitution and the rights of the
individuals. Can the Respondent escape legal
liability for facilitating a nondisclosed contract that
the deprived Mr. Blessett of his rights? The
Appellate Court's judgment relied on state
substantive law for diversity jurisdiction to address
state issues. Still, the U.S. Constitution must be
upheld as supreme to all public law state or federal.
The deprivation of Blessett rights using an act of
the U.S. Congress invalidates any argument under
Texas substantive law for fraud and requires the
federal courts to protect the U.S. Constitution in
the interest of the general public welfare and their
jurisdictional obligation.
On July 23, 1999, Blessett and Garcia agreed to the
terms for support. Garcia is charged with the
omission of the terms of the July 23, 1999, contract
with Blessett and the nondisclosure of October 22,
1999, the contract she signed with the Office of the
Attorney General Texas Child Support Division's
("OAG."). Garcia's action ignores Blessett's private
rights, and deceptively moves to enforce
nondisclosed terms of a federal contract. Garcia's
action on October 22,1999, initiates the deprivation
of Blessett's rights. The average person can see and
accept Garcia's omission of the controlling contract
and ratified support order, as a party with
knowledge of an existing contract. The evidence
presented of Garcia's agreement to July 23, 1999,
"Final Divorce Decree" support order is knowledge
2

of acceptance of the terms of the contract. Garcia
had a legal duty to remove the restriction of the
original contract with Blessett before honoring a
new contract without Blessett's consent. The
Court's decision denies fraud intertwined with
deprivation of Blessett's civil rights. The Court
opinion contradicts its ruling for Joe Blessett v
Texas Office of the Attorney General Galveston
County Child Support Enforcement Division No 1840142.
Blessett also attacks the unequal privilege
granted in Roe v Wade for natural biological women
and denied biological natural heterosexual males
for the consequences of an unwanted pregnancy.
Under equal protection and immunities in private
matters, heterosexual males may not be denied
their birthright and U.S. Constitution protections
from the consequences of unwanted pregnancy
through recreational sex. It is judicial order acting
as legislated public law that is a government
infringement on private rights without a contract
that is repugnant to the U.S. Constitution rights
granted to free individuals. The government has
chosen to protect the rights of women while denying
the rights of biological heterosexual male's mental
health protections. Roe v Wade is not public law. It
is a "Judicial Order" that prevents infringement on
women's privacy rights and falls short of extending
those rights to heterosexual males in the judicial
order. For the order to be equal, Roe v Wade must
be revised or this court must create new order
written for public acceptance and societal changes
of the present times to extend the public
sanctioning of the rights of natural biological men
for the consequences of unwanted pregnancy.

3

REASON FOR GRANTING THE PETITION

A. Blessett charges Garcia with the deprivation
of rights as a silent co-conspirator to fraud in the
omission of the July 23, 1999 support order as an
interstate contract. Garcia is accountable along
with the OAG. in the noncompliance with Title IVD contract due process protections and the omission
of the terms of the Final Divorce Decree under 28
U.S.C. 1343(3). Blessett disagrees with the Court's
opinion that the Garcia can breach one contract and
impose another concealed contract that injures
Blessett without consent and without being liable
for his injuries. It is unequal protection under the
law and an example of implicit bias in family law.
The loss of Blessett U.S. Passport privilege in 2005
destroyed his international maritime career and his
means of making a living. The loss of his driver's
license on September 22, 2014, without a judicial
procedural law process, destroyed other financial
opportunities and is a DPPA 18 U.S.C. 2721(e)
prohibition on the conditions with 18 U.S.C. 2723
penalties. Without a legal instrument of authority
and Blessett consent to Title IV-D contract, it is a
crime under DPPA. The Court judgment ignores
the chronological order of the injuries and judgment
dates. The Court's decision held Blessett
accountable to Title IV-D enforcement without a
valid legal instrument to support their
presumptions. Under contract law and U.S.
Constitutional questions, legal instruments are
required to answer to settle the dispute to preserve
the rule of law. Can the American public depend on
the state and federal Judicial System to uphold
public law protections and legal private law
4

contracts? It is a pivoting point in the Family Law
industry corruption; this case presents deprivation
of rights, corruption, and implicit bias at every level
against noncustodial parents.
The Court's own intervening opinion and the 42
U.S.C. 1983 issue "inextricably intertwined claims"
in Blessett v Texas Office of Attorney General
Galveston County Child Support Enforcement
Division U.S. 5th Cir. Court 2019 and Blessett v.
Tex. Office of the A. G. Galveston Cty. Child Support
Enf't Div., No. 3:17-cv-00164, 2018 U.S. Dist.
LEXIS 22972, 2018 WL 836058 (S.D. Tex. Feb.
12, 2018) civil rights issues requiring less
stringent fraud application that align with U.S.
Supreme Court rulings. The use of FRCP 9(b)
heightened pleading conflict with the U.S.
Constitution in the denial of Blessett rights.
At least two intermediate courts of appeals in
Texas have recognized a subcategory of fraud—
fraud by omission. This subcategory of claims stems
from the basic recognition that an "omission or
nondisclosure may be as misleading as a positive
misrepresentation of fact where a party must
disclose. In contract law, it is fraud when Garcia's
omission of the terms of contract injures the
Petitioner. As in all contract law, it is fraud for
Garcia nondisclosure of the terms of the Title IV-D
contract to Blessett.
It is a valid presumption that Garcia did agree
to the terms the Final Divorce Decree and the Title
IV-D program of her own free will as an adult of
legal age of maturity. It is the deprivation of rights
under the color of law assisted by the Garcia
weaponizing Title IV-D services against Blessett.
Blessett request for the legal instrument with a
valid contractual financial obligation in
5

unambiguous language with Blessett agreeing
to the terms of Title IV-D of the Social Security Act
is a required document that protects all parties'
rights is a valid argument.
The Title IV-D spending clause compliance
statute 42 U.S.C. 654(12) is designed by law to
assure valid legal proof of standing of all parties to
perform with Blessett's rights protected.
Where this Court has noted that federal courts
and litigants must rely on summary judgment and
control of discovery to weed out unmeritorious
claims, Leatherman v. Tarrant County
Narcotics Intelligence and Coordination
Unit, 507 US 163 - Supreme Court 1993 The
District court obstruction of "Production of
Documents" in this civil action denied a U.S.
Constitution question to be answered and contract
evidence to refute the July 23, 1999 contract.
In July of 1999, Garcia entered into an
agreement with Blessett with a contract clause
restricting changes to the contract.
In October of 1999, the Appellee entered an
agreement with the Texas Office of Attorney
General Galveston County Child Support
Enforcement Division for Title IV-D enforcement
and benefits.
In 2004 Blessett sued for modification to the
Final Divorce Decree. Garcia declined the offer,
and the state court granted her order to decline the
offer.
In 2005 Blessett lost his U.S. Passport privileges
and means of income. Mr. Blessett has not been
employed since 2005 and unable to pay the support
order.
The Federal Courts dismissed this civil action
6

without addressing the root cause of the
deprivation of rights. It is the fraud in the omission
of the private contract between Blessett and
Garcia. It is fraud in the nondisclosure of the terms
of the Title IV-D contract to Blessett that Garcia
moved to enforce. The Court's decision violates the
U.S. Constitution as the law of the land above all
other public law to protect individual rights.
This Court has the final authority to overturn
invalid state court judgments. The lower courts
make a valid argument for the overturning of the
state court judgments while staying within the
mandate of their federal jurisdiction. At the same
time, the production of documents would have
exposed insufficient process service and other
absent legal instruments as absolute physical proof
of deprivation of rights.
Blessett has the 5th, 10th, 14th, and 9th
amendment right to enjoy his "Final Divorce
Decree" and "Immunities Clause" protections "that
are in their nature are fundamental individual
rights." The U.S. Supreme Court decisively held
that incorporated Due Process Clause and Equal
Protection Clause protections are all to be enforced
against the States under the Fifth and Fourteenth
Amendment according to the same standards that
protect those individuals' rights against federal
encroachment." Blessett's right to enjoy his Final
Divorce Decree from unlawful government
infringement initiated by Garcia is a" liberty under
the Due Process Clause that is defined in a most
circumscribed manner, with central reference to
specific historical practices” of contract law and
commerce. Quoting Washington v. Glucksberg.
521 U. S. 702. 721 (1997)
"A district court, by definition, abuses its
1

discretion when it makes an error of law." Koon v.
United States. 518 U.S. 81. 100 (1996).

B. The Federal Court had valid diversity
jurisdiction over the claims and 28 U.S.C. 1343 for
a civil action entwined in the deprivation of rights.
If Blessett did not have a valid claim under
subject matter jurisdiction, a Court could not
dismiss with prejudice. If the Blessett has diversity
jurisdiction, the Blessett was entitled to
supplemental jurisdiction.
Garcia had a duty to modify the original judicial
order or reach an agreement with the Blessett
before applying Title IV-D contract enforcement
action not listed in the private contract. Garcia's
actions were willful physical action that deprived
Blessett of his rights and weaponizing the Title IVD services for her benefit. The implicit bias against
Deadbeat parents and the financial growth of the
Family Law Industry have created an obstacle for
good affordable legal representation in the courts.
If the noncustodial parent has you have enough
money to pay an invalid debt, they pay it to make
it go away. Noncustodial parents do not have waste
five to six figures on legal costs. It is extortion,
using coercion to elicit monetary gain in the form
of money or property with the Family Law Industry
profiting .
As for the reasoning for the dismissal, there is
no way an invalid Title IV-D administrative
enforcement "Executive Branch" action can be
intertwined with a valid judicial judgment. It is a
legal impossibility for an invalid action in law to
have standing. The noncompliance under 42 U.S.C.
654(12) is evidence that Garcia lacks standing to
pursue Title IV-D enforcement and is a breach of
8

the private contract ratified in the "Judicial
Branch." There is an obvious distinction in the
"Separation of Power," the timeline of the
judgments and Executive branch administrative
actions versus Judicial Branch. The executive
branch's actions stand outside of the law, in its "
invidiously discriminatory animus," and disparate
treatment of Blessett's private contract. The
Appellate Court's opinion and judgment is the
abrogation of Blessett's
14th
amendment
immunities and privileges and the Title IV-D
spending clause requirements. As well as being
repugnant to the U.S. Constitution, it is an action
that goes against the needs of the greater public
welfare protections. It is the illegal use and
noncompliance of Title IV-D of the Social Security
Act by the OAG. and Garcia that grant civil remedy
under statutory law. Blessett legal rights were
invaded, and the federal courts could use any
available remedy to make good the wrong done. A
collateral attack on a state court judgment is
impossible if the judgment is made invalid by the
lack of procedural due process exposed by the
Court's arguments of a collateral attack.
Blessett lost his U.S. Passport and Texas driver
license through invalid administrative action.
Blessett and Garcia agreed to the terms of the state
court support and the penalties. Blessett Final
Divorce Decree is a valid legal instrument with
equitable value and as protected private property.
Blessett 10th amendment right to private legal
contract was infringe upon by Garcia, his 5th right
to equitable legal instrument denied, and 14th
amendment right by Garcia action.
The judgment is an unequal application of the
law and Blessett's Fundamental Rights to equal
9

treatment for his property, the commerce clause,
and contract clause protections. There are no
explicit legal reasons Blessett's injuries caused by
Garcia's act of providing illegal access to Blessett
that he may not recover money damages or another
remedy, equally effective for his injuries.
The opinions of the Court are in contradiction to
its requirements under 28 U.S.C. 1738B Full Faith
and Credit for Child Support Orders Act for July
23, 1999, judicial child support order and 42 U.S.C.
654(12) Title IV-D spending clause compliance. We
ask this panel to recognize that this Court has
cleared the path for Title IV-D spending clause
noncompliance violation and individual injury
relief under 42 U.S.C. 1983 to run parallel in the
federal courts. The Supreme Court repeatedly has
held that administrative enforcement schemes must
be presumed to parallel the private § 1983
enforcement remedy, rather than to "occupy the
same ground" as the State contends. Rosado v.
Wyman. 397 U.S. 397. 420. 90 S.Ct. 1207. 1222.
25 L.Ed.2d 442 (1970) Garcia and OAG. failed to
comply with the contractual obligations of 42
U.S.C. 654 oU'their contracttherefore, are liable
for the damages against the Blessett as a "Private
Individual." We ask this panel to recognize that
the Blessett's 28 U.S.C. 1738B federal protections
for Blessett's property, the Final Divorce Decree
support order, and its value as an equitable
instrument 'with 5th
and 14th amendment
protections.
C. Under any state substantive law, Garcia has
an obligation under the Procedural Law Process to
get a judicial order to modify the existing judicial
support order. Blessett is entitled to due process, a
copy of this judicial order, and the Court must see
10

it upon opposition to the presumption of its
existence.
FRCP 9 (b) allows for the Conditions of mind in
alleging fraud or mistake; a party must state with
particularity the circumstances constituting fraud
or mistake. Malice, intent, knowledge, and other
conditions of a person's mind may be alleged
generally. Garcia knew of the July 23, 1999
contract with the intent to enforce her contract
with the OAG. signed on October 22, 1999.
FRCP 9(d) Allows an official Document or Act in
pleading an official document or official act. It
suffices to allege that the document was legally
issued, or the act legally is done. There were no
objections to Blessett us of FRCP 9 (d) in this civil
action by Garcia.
Blessett presented physical evidence with the
request for "Judicial Notice" of the publicly
available recorded document proving the private
contract ratified by judicial order for support and
Blessett's exempt status homestead before the
summary judgment. Under the rule of law and
logic, unsubstantiated testimony is inferior to
physical evidence, and Blessett's firsthand witness
testimonial. It is not the judgment at the center of
attention; it is the documented behavior before
judgment establishing scienter. The physical
evidence and the request for Judicial Notice to
verify publicly available recorded documents
proved Garcia requesting Title IV-D services in
1999 and continued pursuant of those
services. There was no publicly verifiable evidence
of Garcia declining the OAG. services. The publicly
recorded physical evidence verifiable by Judicial
Notice of the documented request for Title IV-D
services and the Final Divorce Decree court
11

support order is valid private contractual
agreements as legal documented acts are presented
under FRCP 9(d). It is all presented as "contextspecific" verifiable physical documented evidence
that are the facts that shifted the circumstances for
Grubbs. 565 F.3d at 188 (quoting Williams v.
W.M.X. Techs.. Inc.. 112 F.3d 175. 178 (5th Cir.
1997) and the context-specific particularity request
by the District Court. Blessett, as a firsthand
witness and the verifiable documented physical
evidence, is superior to unsubstantiated opinion
and testimonies. The presentation of physical
evidence to support Blessett's claims shifted the
burden of proof to Garcia to support her defense.
The inference that the defendant acted with scienter
need not be irrefutable, i.e., of the "smoking-gun"
genre, or even the "most plausible of competing
inferences," Fidel, 392 F.3d, at 227 (quoting
Helwig v. Vencor, Inc., 251 F.3d 540, 553 (C.A.6
2001) (en banc)), Tellabs, Inc. v. Makor Issues
& Rights, Ltd., 551 US 308 - Supreme Court
2007 The panel can easily conclude from the
pleadings and the physical evidence, a legal
conclusion favoring Blessett. The lower Court's
ruling is in conflict with the U.S. Supreme court for
establishing
scienter.
Blessett
presented
conclusive presumptions to support the allegations
in his complaint.
To maintain uniformity of the Court's decisions
the panel should have considered the effects on the
42 U.S.C 1983 appeal No. 20-40135 against
Galveston County municipality, a Texas Office of
Attorney General Child Support Division as a 45
CFR 302.34 contractor listed in the amended
complaint in regards to 42 U.S.C 1983 liabilities as
an obstacle under FRCP 9(b) particularity in
12

pleadings. The Federal Rules do address in Rule
9(b) the question of the need for greater
particularity in pleading certain actions but do
not include among the enumerated actions
any reference to complaints alleging
deprivation of civil rights. A court may not
apply a heightened pleading standard more
stringent than the usual pleading requirements of
Rule 8 in civil rights cases alleging liability under
§ 1983 Quoting Leatherman v. Tarrant County
Narcotics Intelligence and Coordination
Unit, 507 US 163- Supreme Court 1993 The
ruling comes into conflict again with the U.S.
Supreme Court for liabilities that are in the same
class with 28 U.S.C. 1343 pleadings requirements
under Rule 8 in civil rights cases. The District
Court following the intervening opinion of this
Court and the 42 U.S.C. 1983 issue "inextricably
intertwined claims" withdrew its opinion to
dismiss, is judicial admission of valid 42 U.S.C.
1983 issues attached to this civil action.
The production of documents would have
supported or denied Blessett's claims with absolute
certainty. The Court actions denied answers that
would have solved unanswered U.S. Constitution
question.
Blessett applied FRCP 9(e), to plead the
judgments without showing jurisdiction to render
it. The particularity of the circumstances
constituting fraud, malice, intent, knowledge, and
other conditions of the Garcia state of mind may be
alleged generally. The judgments are off-limit, but
as evidence of Garcia's state of mind, it is valid
evidence to support a history of fraud, malice,
knowledge with the intent to harm the Blessett
instead of receiving payment.
13

It is an unrefuted, presumption that both
judgments were received without following the
"Procedural Law Process," and it is presumptive
evidence protected under FRCP 9(e) in the
omission of information. On the subject of
judgment without due process, Garcia never
refuted this allegation establishing it as a fact. As
an invalid state, court judgments Blessett ask this
Court to overturn the state court judgments.
Garcia had the opportunity in the trial court to
challenge Blessett's allegations with physical
evidence of Procedural Due Process performed
under FRCP 8(b)(6) and FRCP 8(C) to provide an
affirmative defense.
In 2016 Garcia opted for a private attorney
instead of a meditate settlement with Blessett. The
private attorney massaged truth and persuade
part-time
Title
IV-D
45
CFR
302.34
contractor/state court judge to look the other way
on a document proving exempt property status
before the summary judgment. Law Firm takes
control of the property with fraudulent affidavit,
auctions property for $65,000.00, gives the
Appellee $50,000.00, keeps $15,000.00 for legal
fees, and the $120,000.00 of equity left in the
property. The Law Firm bought the property at
auction with Garcia. But the icing on the cake is
that the Law Firm did not submit the $65,000.00
to Title IV-D program to give the Blessett credit
and the rental of the property by Garcia and her
counsel. It is a white-collar crime no one wants to
prosecute; the Texas Attorney General is
compromised as the state-designated person to
head the Title IV-D program, it is beyond the scope
of local police, and the U.S. Attorneys have yet to
act on it. It is evidence of implicit bias child support
14

debtors and a broken judicial system.
D. State and local subdivision recorded
documents are affidavits of voluntary declarations
of facts written down and sworn to by the declarant
filed by an authorized officer under penalties. State
record public documents are based on entirely
neutral facts that are non-accusatory as clear and
convincing evidence beyond a reasonable doubt.
The presented physical evidence with the textual
contents of the recorded documents tips the burden
of persuasion standard in favor of Blessett as proof
for a preponderance of the evidence. Garcia had the
burden of proof to refute the physical evidence
presented by Blessett. Any unrefuted allegation
must be treated as facts supporting Blessett under
FRCP 8(b)(6) and FRCP 8(C). It was Garcia's
obligation and duty to refute the allegations with
facts and law for a jury to form a conclusive
presumption. The use of opinions around
circumstances and events "to create presumptions
is not a means of escape from constitutional
restrictions." Bailey v. Alabama. 219 U.S. 219.
238. et sea.. 31 S.Ct. 145: Manley v. Georsia. 279
U.S. 1. 5-6. 49 S.Ct. 215 A presumption is not
evidence. A presumption is either conclusive or
rebuttable; the opinions and judgments outlined in
this civil action rely on inconclusive presumptions.
As a note to the panel, the Garcia never objected on
the record to the opposing documented physical
evidence or the claims presented on the record.
Federal Rules of Evidence Rule 201. Judicial
Notice of Adjudicative Facts (c) Taking Notice. The
Court :(2) must take Judicial Notice if a party
requests it, and the Court is supplied with the
necessary information. Rule 901. Authenticating or
Identifying Evidence (7) Evidence About Public
15

Records. Evidence that:(A) a document was
recorded or filed in a public office as authorized by
law, or (B) a purported public record or statement
is from the office where items of this kind are kept.
E. In Private Law, the Constitution takes a
back seat to legal private contract terms, and there
must be an acknowledgment of the agreement
between all parties concerned to enforce a contract
to avoid "Public Law" problems. Individual
citizens are not required to act in the public
interest. Private law gives them the legal tools to
act in their own interest.
Public Law "The Constitution and the Laws of
the United States are made in Pursuance of all
Treaties made, under the Authority of the United
States, the supreme Law of the Land; and the
Judges in every State are bound by, any Thing in
the Constitution or Laws of any State to the
Contrary notwithstanding." Article VI
A blanket FRCP 12(b)(6) motion against Blessett
claims are supported with unrefuted allegations,
verifiable physical evidence, with Blessett as a
firsthand witness, and statutory right to relief is a
contradiction to the rule of law. A collateral attack
on a judicial order from an invalid executive branch
administrative order is a contradiction of the law.
Relief from injuries for invalid acts of law is a relief
for wrongs that cannot exist in law and cannot
harm a judgment granted by law if the act is not
permitted by law.
This Court decision does not dispute the legal
requirements under 28 U.S.C. 1343 giving the
Blessett standing to support his claims for relief.
The Court's opinion does not provide a reference to
physical evidence of an equitable instrument to
replace the Final Divorce Decree support order.
16

The opinion of the Court promotes implicit bias
against Blessett's failure to pay child support
without evidence to disprove the inability to pay or
intentional avoidance of the terms of the order. It
is a prejudicial defense and invalid as evidence or
legal standing to support a judgment.
Under Title IV-D of the Social Security Act, the
disclosure of the terms of the federal contract
before applying Title IV-D enforcement penalties is
a contractual requirement to preserve the State's
10th amendment right and Blessett civil rights.
To affirm the District Court's opinion, a valid
instrument of authority of equal, equitable value to
offset the value of the Final Divorce Decree must
be present. The Final Divorce Decree is Blessett's
equitable property deprived under the color of law.
The acknowledgment of the contract is evidence of
knowing the equitable instrument able to prevent
injury through disclosure of the facts. It is evidence
of a lack of procedural due process that supports
the argument for invalid state court judgments to
be overturned by the Supreme Court to protect the
U.S. Constitution.
It is not whether Garcia had direct involvement
in all the information or actions taken. It is
Garcia's direct involvement in facilitating access to
Blessett through the omission of one contract and
the nondisclosure of another contract. It is the
benefits enjoyed by Garcia, and the harm is done to
Blessett through indirect involvement. Equal
application of law requires the Court to treat the
Garcia under 28 U.S.C. 1343(3) statute or show
good cause for denying the Blessett equal
application of the law. There are no justifiable
reasons in law to support Garcia's defense. Garcia
brought the public into a private matter without
17

consideration of Blessett'sPrivate law rights and
Public law protections. Garcia weaponized an
Act of Congress to deprive the Blessett of his rights.
In this civil case, everybody got caught with their
hands in the cookie jar. Garcia opted for the stricter
tools of the Title IV-D program without suing to
modify her private contract with Blessett and
breaching her private contract with Blessett in
October of 1999. The OAG. got caught enforcing the
Title IV-D program tools against a private
individual under the color of law, breaching the
contract with the United States Government. Title
IV-D tools are for the Title IV-D program voluntary
participants that agree to the contractual terms.
The Office of Attorney General (OAG.) is the
designated Title IV-D agency in Texas. It has the
power to enforce Title IV-D established child
support orders for the collection and distribution of
support payments. TEX. F.A.M.CODE §§ 231.001,
,101(a)(5)-(6). Among its powers is the ability to
seek a court order to withhold income from a
child support obligor's disposable earnings. TEX.
F.A.M.CODE §§ 102.007 (authorizing Title IV-D
agencies to file suits for modification or
motions to enforce child support orders),
158.006 (a court or a Title IV-D agency "shall order
that income be withheld from [obligor's] disposable
earnings"); see also id. §§ 231.001, .002, .101
(describing the powers, services, and duties of a
Title IV-D agency, including enforcement,
collection, and distribution of child support
payments). Office of Att\. Gen, of Texas v.
Scholer. 403 SW 3d 859 - Tex: Supreme Court
2013
The OAG. never followed the judicial
"Procedural Law Process" against Blessett and,
18

therefore, unable to produce the required valid
judicial order. TEX. F.A.M.CODE § 231.104(b)
("An application for child support services is
an assignment of support rights to enable the
Title IV-D agency to establish and enforce child
support and medical support obligations....”).
Office ofAtty. Gen, of Texas v. Scholer
The OAG.'s right to establish Title IV-D services
is not an established right to enforce Title IV-D
child support services against the Blessett. The
OAG. is required to follow the federal statutes,
which are located in Part D of Title IV of the federal
Social Security Act. 42 U.S.C. § 654 et seq. Under
the program's guidelines, Texas "at a minimum"
must establish a state registry consisting of
"fejvery IV-D case receiving child support
enforcement services under an approved State
plan; and ... fejvery support order established
or modified in the State on or after October 1,
1998." 45 C.F.R. §§ 307.11; 307.11(e)(2)(i)-(ii). The
state case registry also must contain certain
"Standardized data elements" for every program
participant. Id. § 307.11(e)(3). These standardized
elements "shall include . . . Names . . . Social
security numbers . . . Dates of birth . . . Case
identification
numbers
...
Other
uniform
identification numbers ... [and] Data elements
required under paragraph (f)(1) of this section
necessary for the operation of the Federal case
registry. "Id. § 307.11(e)(3)(i)-(vi) (emphasis added).
Office of the Att\. Gen, of Texas. 456 SW 3d 153
- Tex: Supreme Court 2015. See 42 U.S.C.
654a(e)
Every day, folks with commonsense can see the
Title IV-D program as corrupt with systemic
problems affecting noncustodial parents. They are
19

burning their nonprofitable clients and moving
onto the fresh meat, and it is no different from the
drug game or predatory payday loans. It is a direct
example of the transfer of wealth from a poor
community to a more affluent community using an
Act of Congress to feed the Family Law Industry.
When time and history reveals the truth is about
today's family law system, it will draw comparisons
with the redlining of black communities. Instead of
geographical, racial lines, the lines are drawn
against across lines of economic access. It is an
overreach of the public into the private
domain to transfer wealth.
The
federal
statute,
42
U.S.C.
603
(5)(c)(iii)(III) unambiguously states, "In the case
of a noncustodial parent who becomes enrolled in
the project"
while
42
U.S.C.
601(b)
unambiguously states, "This part shall not be
interpreted to entitle any individual or family to
assistance under any State program funded under
this part "and 42 U.S.C. 654(12) unambiguously
states "require the State to provide individuals who
are applying for or receiving services under the
State plan, or who are parties to cases in which
services are being provided under the State plan
with a copy of any order establishing or modifying
a child support obligation."
As a firsthand witness and the absence of the
required documentation, the burden of proof
shifted to Garcia and discrediting any support for
any inconclusive presumptions. Invalid Executive
branch Title IV-D administrative order will never
grow up to be valid Judicial Branch court orders
without committing fraud or a correctable mistake
of law by applying mandatory public law and the
U.S. Constitution restrictions against Garcia.
20

Counts one, two, and three are Title IV-D
administrative orders, and it is the fraud, the
smoke, and mirrors under the color of law. The
theft of the property and the loss of privileges are
the catalysts that exposed the truth. The evidence
shows Garcia, the OAG and Private Attorney knew
about the private contract and failed to disclose the
terms of the contract being enforced and follow
procedural law. Blessett's Decreed Divorce
Contract is the legal instrument of authority with
the terms and agreed upon conditions with a
contract clause stating, "It is ordered and Decreed
that all relief requested in this case and not
expressly granted is denied." 28 U.S.C. 1738B.
Contract Clause Article I, section 10. clause 1.
Commerce Clause. 5th and 14th amendment
protections
The Appellate Court's judgment exposes invalid
state court judgment while correctly protecting its
jurisdictional authority. The Federal Court's
judgments deflect the U.S. Constitutional
violations against Blessett in favor of technicality
under FRCP 9 (b) without addressing their
obligation under federal jurisdiction to protect
Individual rights granted under the U.S.
Constitution as the law of the land superior to all
public law. The Respondent's argument does not,
at any point, reference physical evidence
throughout the proceedings to discredits the facts
and physical evidence presented by the Petitioner.
The case pivots on the documented evidence to
answer Constitutional questions to preserve
Blessett's rights. Did Garcia and the OAG. have a
legal instrument dated before June 13, 2015,
ratified by a judicial order to enforce a Title IV-D
administrative orders? Did Garcia have proof of
21

sufficient process services before June 13, 2015?
Did Garcia have documentary evidence as a
creditor in Blessett and Maria Blessett exempt
homestead property? Where established State
substantive law , U.S. 5th Circuit Court established
case law and the Constitution support Blessett
arguments.
Custodial have parents weaponized child
support, the state entities have monetized child
support, and Bill Clinton’s signing of the Deadbeat
Parent act incentivized child support with cash
bounties on noncustodial parents.
F. Blessett challenges the denial of the
heterosexual male's biological birthright and U.S.
Constitution rights to abort the consequences of
recreational sex in intimate private relations.
This Court favors the individual's due process
14th amendment privacy rights. Roe v Wade
established the judicial law doctrine for personal
privacy rights that overturned public opinion of
conformity and public religious belief for the
individual's rights. But the doctrine falls short of
equal rights for heterosexual male's rights. See
Reva B. Siegel. She the People: The
Nineteenth Amendment.
Sex Equality.
Federalism, and the Family. 115 Harv. L. Rev.
947. 949 (2002) (arguing that, in the constitutional
context, "the Supreme Court developed the law of
sex discrimination by means of an analogy between
sex and race discrimination"). Accordingly, we find
that Loving's insight— that policies that
distinguish according to protected characteristics
cannot be saved by equal application—extends to
association based on sex. See also Loving v.
Virginia. 388 U.S. 1. 87 S.Ct. 1817. 18 L.Ed.2d
22

1010 (1967)
Heterosexual males and potential fathers are
not given equal protection for physical and mental
health in United States courts. More specifically,
in the direction of child-custody, parent-child
relationships, and in the considerations of these
cases. Equal co-parenting is all but ignored in the
Family Law Industry. The system ignores child
development issues, child mental health issues,
and child suicide from parent-alienation, among
others.
See Divorce Poison New and Updated
Edition: How to Protect Your Family from Badmouthing and Brainwashing by Dr. Richard A.
Warshak; Parental Alienation Syndrome in Court
Spiral-bound - 2000 bv Dr. Richard A. Warshak.
In a recent Psychological Bulletin article^
Parental
Alienating
Behaviors:
An
Unacknowledged Form of Family Violence
Harman. Kruk. & Hines (2018) clarified that
alienation is child abuse with consequences
potentially more damaging than from physical or
sexual abuse: depression, anxiety, addictions, poor
relationships, and suicide. Roe v. Wade. 410 U.S.
113. 154. 93 S.Ct. 705. 35 L.Ed.2d 147 (1973)
(stating that a State may have compelling interests
"in safeguarding health, [and] in maintaining
medical standards")
State entities have discriminated against the
U.S. Constitution in the lack of enforcement of the
federal provisions, as an unused two-parent family
values promotion 42 U.S.C § 601(a)(4), denial of
equal parenting custody, and noncustodial parent
considerations, favoring monetary rewards for
performance 42 U.S.C § 658a and bonuses for
enforcement collection efforts 42 U.S.C § 603(a)(4).
23

It is undeniable that the majority of the injured are
heterosexual males, although the consequence is
extended to all. The disparity cannot be denied by
the number of men affected. Equality is offered on
the surface and denied by implicit bias of the
deadbeat moniker established in H.R. Deadbeat
Parents Punishment Act of 1998 signed by Bill
Clinton. Along with the Incentive rewards for
performance, 42 U.S.C § 658a to the state agencies
under administrative law on any account or
definition is an inducement to create an illegal
bounty to increase the number of noncustodial
parents under the program by creative means.
Those creative means that involve the denial of
rights unchecked because of federal statutes
structures and implicit bias as in this civil action.
As this Court has explained, "if the
constitutional conception of 'equal protection of the
laws' means anything, it must at the very least
mean that a bare congressional desire to harm a
politically unpopular group cannot constitute a
legitimate governmental interest." U.S. Dep't of
Agric. v. Moreno. 413 U.S. 528. 534. 93 S.Ct.
2821. 37 L.Ed.2d 782 11973): see also Bower v.
Vill. of Mount Sterling. 44 Fed. Appx. 670. 67578 (6th Cir.2002) (denial of appointment to village
police chief in retaliation for plaintiffs' parents'
political views states Equal Protection claim) In
Loving, the Commonwealth of Virginia argued that
anti-miscegenation statutes did not violate the
Equal Protection Clause because such statutes
applied equally to white and black citizens. The
Supreme Court disagreed, holding that "equal
application" could not save the statute because it
was based "upon distinctions drawn according to
race" Bostic v. Schaefer 760 F.3d 352 (4th Cir.
24

2014). Constitutional cases like Loving "can
provide helpful guidance in statutory context" for
equality.
In the determination of rights, the "distinctions
are drawn according to gender sex," and privacy
rights for physical health and mental health of
creates no barriers for extending equal rights to
heterosexual men. A heterosexual man's right to
create a life is a private personal and moral
decision based personal religious belief, mental
issues concerns about parent alienation, physical
health, and mental stress of forced monetary needs
for two households. There are no barriers to
prevent gender equality rights for bodily integrity
for heterosexual male's privacy interest in
protecting their mental health in an unwanted
pregnancy.
The U.S. courts have long ignored the protected
privacy rights of heterosexual males. This Court
has looked beyond morality and public conformity
to protect individual civil rights. At this time in
American history, conformity for equal rights for
women, gender-neutral, and gender-binary for
protected privacy rights, with concerns about
physical and mental health, is not an obstacle for
the U.S. judicial system to honor. Equal Protection
Clause's prohibition of sex-based discrimination is
"sufficiently important government purpose" gender
conformity is protected against sex discrimination
in the 21st century. Glenn v. Brumby. No. 1014833 (11th Cir, 2011)
It is not a hard stretch to extend the established
protections for heterosexual males. The decision for
the protected right to privacy without government
infringement has been decided by the U.S.
Supreme Court Law Doctrine and denied
25

disproportionally by the U.S. judicial system to
heterosexual males. It is gender discrimination of
heterosexual male's mental health, without
consideration of equal gender rights for the
consequence of intimate relations. Forced creation
of life without consideration of heterosexual males
right to avoid the consequences of recreational sex,
creates public policy conflict, with government
infringement on individual intimate rights without
a legal contract. "The heterosexual male is immune
from all government infringement and procedure,
absent contract." see, Dred Scott vs. Sanford, 60
U.S. (19 How.) 393 or as the Supreme Court has
stated clearly, "...every man is independent of all
laws, except those prescribed by nature. He is not
bound by any institutions formed by his fellowmen
without his consent." In reality, there is a valid
difference
between
recreational
sex
and
procreational sex under a marriage contract
between individuals. If a woman decides to have
recreational sex with undesirable heterosexual
males, she maintains control of the fundamental
privacy rights of her consequences to her physical
and mental health. Roe v Wade protects her right
to abort for an unwanted pregnancy. In Roe, a
woman can choose to have intimacy and still have
control over subsequent consequences. This Court
must give a U.S. Constitution reason a
heterosexual male is denied the same right over the
consequences of recreational sex with an
undesirable biological female. Sex is a private
intimate act between individuals of all genders,
and the consequences of those act sex must be
equal
from
government
infringement.
Heterosexual males have their God-given
birthright and U.S. Constitution right to be free of
26

all consequences of consensual recreational sex.
The U.S. Congress may not create legal
infringement into intimate private matters to
create protected U.S. Government interest. The
decision of the judicial branch must be guided by
the U.S. Constitution, and the rights granted free
heterosexual males not under contracts are clear in
the U.S. Constitution. Under Federal, State, and
God's law, it is a woman's body, her choice, and the
consequence of her choices alone without a
contract. Roe v Wade and strides made in gender
equality for gender-neutral and biological gender
choice rights requires equality for heterosexual
males in the consequences of intimate relations. In
every equal protection case, we have to ask certain
basic questions. What class is harmed by the
legislation, and has it been subjected to a "tradition
of disfavor" by our laws? What is the public purpose
that is being served by the law? What is the
characteristic of the disadvantaged class that
justifies the disparate treatment? In most cases, the
answer to these questions will tell us whether the
statute has a "rational basis." The answers will
result in the virtually automatic invalidation of
racial classifications and in the validation of most
economic classifications, but they will provide
differing results in cases involving classifications
based on alienage, gender, or illegitimacy.
Cleburne v. Cleburne Living Center. Inc.. 473
US 432 - Supreme Court 1985 The twenty-first
century Law Doctrines and legislation have
provided a legal path for multi-gender equality
beyond male-female classifications. It is time to
enforce gender-equal protected rights for
heterosexual male's sexual consequence in
noncontractual intimacy. Any law passed by
27

Congress or state law that goes against the U.S.
Constitution is repugnant to the U.S. Constitution
as an is invalid, unenforceable law.
The truth is that there are not any public laws
to prevent free heterosexual males from exercising
their birthrights and U.S. Constitution protection
to abort the consequences of unwanted pregnancy
without a contract. There is implicit bias in the
federal and state judicial system and deceptive
administrative law practices to deny civil rights in
family law.
In January 1973, the Supreme Court 7-2
decision ruling that the Due Process Clause of the
Fourteenth Amendment to the U.S. Constitution
provides a "right to privacy" that protects a
pregnant woman's right to choose whether or not to
abort the unwanted consequences of pregnancy.
This Court cannot deny the rights of heterosexual
males to granted by the U.S. Constitution and the
creator's biological preference to abort the
consequence of an unwanted pregnancy.
A
woman's right to abort has become absolute, and no
longer balanced against the government's interests
in protecting women's health and protecting
prenatal life. The right to any form of abortion is
the removal of the consequences of an unwanted
pregnancy.
By birthright and the U.S.
Constitution, heterosexual males are granted the
right to deny or choose to accept an unwanted
pregnancy, and it is deceptive government
infringement that denies these rights. Women have
fought for equality and won the right to choose,
now they must live with the consequence of those
equal rights. A woman is entitled to enjoy as much
recreational sex as she wants and the consequences
of her birthright as a natural biological woman
28

with U.S. Constitution protections equal to
heterosexual males in her decisions. The
consequence of a natural biological woman's
actions are her rights alone by choice, and any
government evolvement on her decision would be
an infringement on private matters of all the
individuals involved. U.S. Congress may not
legislate any government protected interest or
public law that infringes on the individual's civil
rights protected under the U.S. Constitution. It is
the very reason Title IV-D of the Social Security
Act is contractual and requires the consent of all
the parties involved.
This Court has publicly protected the biological
women's birthright and U.S. Constitution
protection from avoiding the consequences of
unwanted pregnancy as a private right. Blessett
requests equal public protection on the judicial
record for heterosexual biological male birthright
and U.S. Constitution protections to avoid the
consequences of unwanted pregnancy as a private
right in recreational sex outside of a physical inked
state-licensed matrimonial contract.
In providing equal public protection for
heterosexual males on the judicial record, this
Court will curtail judicial discrimination, deceptive
administrative law practices, and the corruption of
the Family Law Industry that violate the civil
protections of the U.S. Constitution. This civil
action is the vehicle for addressing the questions
presented in gender bias in family law, the greater
public welfare protections of the United States
Constitution, and illegal Public law overreach into
Private law Domain.

29

CONCLUSION
The Petitioner's request remedy for the
deprivation of rights under the color of law assisted
by the custodial parent weaponizing Title IV-D
services and invalid state judgments obtained
without sufficient service of process notice to defend
from default.
Blessett advocates for equality in privacy rights
for the mental health of heterosexual, the rights
granted in the U.S. Constitution, and God-given
birthright protections of free individuals. The
petitioner request equal public judicial order for
private birthrights and U.S. Constitution rights for
biological heterosexual men and biological women
free from all consequences of unwanted pregnancy
outside of a private contract.
Blessett respectfully asks this judicial body to
address U.S. Constitution conflicts, legal oversight,
and neglected injuries against Blessett within the
text of this petition.
Respectfully submitted,
(\

^3

3. 2-3 2P

Joe Blessett / Pro Se
3118 FM 528 #346
Webster, Texas 77598
(281) 667-1174

30

